NO.

IN THE SUPREME COURT OF THE UNITED STATES

LESLIE WILLIS, PETITIONER
v.
THE HON. LAWRENCE J. O'TOOLE, et. al., RESPONDENTS
ON PETITION FOR WRIT OF CERTIOARI TO
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR WRIT OF CERTIORARI
LESLIE WILLIS
P.O. BOX 1153, BOWIE, MARYLAND 207181?
LWILLIS222@YAHOO.COM18

PROOF OF SERVICE
I, Leslie Willis, do swear or declare that on this date, May 3, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and

17 Petitioner's last legal address. At this time, Petitioner is in Pittsburgh, PA. Petitioner is domiciled in Prince
George's County, Maryland.
18 No Telephone number available.

with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows
Lee Dellecker (for County Respondents) (Email)

Caroline P. Liebenguth4 (Email)

Assistant County Solicitor (Pa. I.D. #314672)

(Attorney for Judicial Defendants)

Allegheny County Law Department

Administrative Office of PA Courts

300 Fort Pitt Commons Building

437 Grant Street, Suite 416

445 Fort Pitt Boulevard

Pittsburgh, PA 15219-6003

Pittsburgh, PA 15219
(412) 350-1167

Bridget J. Daley, (Email and Hand Delivery)
Associate, Buchanan Ingersoll & Rooney, PC
For William S. Demchak, President and Chief Executive Officer, PNC Bank, The PNC Financial
Services Group, Inc.
One Oxford Centre
301 Grant Street, 20th Floor
Pittsburgh, PA. 15219-1410

Is/ Leslie Willis, Petitioner (Pro Se)
Send Service/Notice To: lwillis222@vahoo.com; or via Court Electronic Service
(No telephone # is available); PACFile registered; CM/ECF Registered

4 Pursuant to Fed. R. Civ. Proc: Rule 5 (b) (1): Service: How Made: (1) Serving an Attorney. If a party is represented by an attorney, service
under this rule must be made on the attorney unless the court orders service on the party. Caroline P. Liebenguth legal counsel for the Hon.
Lawrence J. O'Toole and the Hon. Judge Kathleen A. Durkin.

Yahoo Mail • CERTIORARI

S/3/2021

Yahoo Mail - CERTIORARI

5/3/2021

[16] Appellant also cites claims under §1983. Hence: Appellant’s §1985 Conspiracy claim is not her only claim in
District Court.

CERTIORARI

[17] Petitioner's last legal address. At this time, Petitioner is in Pittsburgh, PA. Petitioner is domiciled in Prince George's
County, Maryland.

From: Leslie Willis (lwi(iis222@yahoo.com)

[18] No Telephone number available.

lee.dellecker@alleghenycounty.us; caroline.!iebenguth@pacourts.us; iegaldepartment@pacourts.us

[19] Pursuant to Fed. R. Civ. Proc. Rule 5 (b) (1): Service: How Made: (1) Serving an Attorney. If a party is represented by an attorney, service
under this rule must be made on the attorney unless the court orders service on Ore party. Caroline P. Uebenguth legal counsel for the Hon.
Lawrence J. O'Toole and the Hon. Judge Kathleen A. Durldn.

Date: Monday, May 3, 2021,02:05 PM EDT

0

NO.

PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT OF THE UNITED STATES.pdf
806.6kB

IN THE SUPREME COURT OF THE UNITED STATES

LESLIE WILLIS, PETITIONER
v.
THE HON. LAWRENCE J. O'TOOLE, Individually, and in his
Official Capacity as Administrative Judge for the Court of Common
Pleas of Allegheny County Orphans' Court Division; TIMOTHY
FINNERTY, Individually and in his Official Capacity as Assistant
County Solicitor; MICHAEL MCGEEVER, Individually and in his
Official Capacity as Director, of Allegheny County Dept, of Court
Records Wills/Orphans' Court Division; MELISSA DIESEL,
Individually; WILLIAM TENNEY, Individually; JAMES UZIEL,
Individually and in his Official Capacity as Deputy Records, for
Allegheny County Department of Real Estate; and THE HON.
JUDGE, KATHLEEN A. DURKIN, Individually, and in her Official
Capacity for the Court of Common Pleas Orphans’ Court Division,
RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI TO:
UNITED STATES COURT OF APPEALS FOR THE THIRD
CIRCUIT

PETITION FOR WRIT OF CERTIORARI
LESLIE WILLIS
P.O. BOX 1X53, BOWIE, MARYLAND 20718[1]
T,WTTJJS222<aYAHOO.COM

QUESTIONS PRESENTED
1/18

18/18

